               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Strategic Approaches to Revenue
                 Protection

                       Audit Report




                                         September 30, 2011

Report Number MS-AR-11-007
                                                                   September 30, 2011

                                                   Strategic Approaches to Revenue
                                                                         Protection

                                                        Report Number MS-AR-11-007

IMPACT ON:
U.S. Postal Service customers and            WHAT THE OIG RECOMMENDED:
Postal Service revenue protection.           We recommended management work
                                             with a broadened group of internal and
WHY THE OIG DID THE AUDIT:                   external stakeholders to prepare for
Our objectives were to assess the            streamlining the entry of business mail,
Postal Service’s revenue-protection          accelerate the timeline for streamlined
strategies, identify the causes of           acceptance and verification, and seek to
revenue leakage, and identify potential      leverage technology to provide revenue
solutions to mitigate the risks.             protection for Basic Service IM and
                                             non-automated volumes.
WHAT THE OIG FOUND:
Postal Service officials collaborate and     WHAT MANAGEMENT SAID:
communicate regularly with internal and      Management stated it partially agreed
external stakeholders and there are a        with our recommendation. Management
wide variety of program groups that          stated it does not agree with the use of
address revenue-protection issues and        Origin Destination Information System –
strategies. The Postal Service continues     Revenue, Pieces, and Weights (ODIS-
to address revenue protection through        RPW) as a data source, as this system
technological initiatives as well as         is used for single-piece mail only.
checklists, quick service guides, and        However, management agreed with our
training for clerks. However, revenue        recommendation overall and provided
leakage will continue to occur until         planned actions and a planned
automated verification procedures that       completion date.
use mail processing equipment and
intelligent mail (IM) technologies replace   AUDITORS’ COMMENTS:
current manual processes.                    The U.S. Postal Service Office of
                                             Inspector General (OIG) considers
Preparation for fully automating the         management’s comments responsive
business mail entry process will depend      and corrective actions should resolve
on broadened collaboration with              the issues identified in the report. Based
processing officials and adoption of         on management’s comments and
Full-Service IM barcodes on mailpieces       additional analysis of ODIS-RPW data,
and containers. Basic Service IM and         we removed the monetary impact from
non-automated mail will continue to          the report.
require costly manual revenue
protection procedures until additional       Link to review the entire report
automated technologies are developed.
September 30, 2011

MEMORANDUM FOR:            PRITHA N. MEHRA
                           VICE PRESIDENT, MAIL ENTRY AND PAYMENT
                           TECHNOLOGIES

                               E-Signed by Darrell E. Benjamin, Jr
                                 VERIFY authenticity with e-Sign

FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue & Systems

SUBJECT:                   Audit Report – Strategic Approaches to Revenue Protection
                           (Report Number MS-AR-11-007)

This report presents the results of our audit of the U.S. Postal Service’s revenue
protection strategies (Project Number 11RG011MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director, Sales
and Service, or me at 703-248-2100.

Attachments

cc: Ellis A. Burgoyne
    Corporate Audit and Response Management
                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Streamlined Business Mail Acceptance Will Mitigate Revenue Leakage ......................... 2

Revenue Protection Reliance on Full-Service IMb ............................................................ 4

Recommendation ................................................................................................................ 6

Management’s Comments .................................................................................................. 6

Evaluation of Management’s Comments ............................................................................ 7

Appendix A: Additional Information..................................................................................... 8

   Background ...................................................................................................................... 8

   Objectives, Scope, and Methodology ............................................................................. 9

   Prior Audit Coverage ..................................................................................................... 11

Appendix B: Management’s Comments ........................................................................... 15
Strategic Approaches to Revenue Protection                                                           MS-AR-11-007




Introduction

This report presents the results of our audit of the U.S.Postal Service’s
revenue-protection strategies (Project Number 11RG011MS000). Our objectives were
to assess the Postal Service’s revenue-protection strategies, 1 identify the causes of
revenue leakage, and identify potential solutions to mitigate the risks. This is a
self-initiated audit that addresses financial and operational risks. See Appendix A for
additional information about this audit.

The Postal Service obtains revenue from both retail (individual) sales and business
mailings. Each source provides challenges to revenue protection resulting from
shortpaid (insufficient) and unpaid postage. 2 Mail entering the mailstream through retail
channels is generally weighed, measured, and handled manually; in fiscal year (FY)
2010 retail mail accounted for 26 percent of total mail volume, or $17.5 billion in
revenue.

A larger challenge lies in protecting business mail revenue, due to the extensive volume
entering the system primarily through business mail entry units (BMEUs) or detached
mail units (DMUs). Business mailings accounted for $48.8 billion (or 74 percent) of
revenue in FY 2010. Postal Service total revenue has declined by $7 billion over the last
4 fiscal years and declines are expected to continue in the foreseeable future. These
declines are the result of economic downturns and the accelerating preference for
digital communication alternatives. Ensuring the Postal Service receives all revenue
from its goods and services is critical, especially as revenue declines. 3

Conclusion

Postal Service officials collaborate and communicate regularly with internal and external
stakeholders and there are a wide variety of program groups that are addressing
revenue-protection issues and strategies. The Postal Service continues to address
revenue leakage through technological initiatives as well as checklists, quick-service
guides, and training for clerks. However, revenue leakage will continue to occur until
automated verification procedures that use mail processing equipment and intelligent
mail (IM) technologies replace current manual processes.

Successfully automating the business mail entry process will depend on br oadened
collaboration with mail processing officials, in addition to continued input from
engineering, product visibility, and other groups. The adoption of Full-Service Intelligent
Mail barcodes (IMb) by business mailers for mailpieces and mail containers will

1
  Revenue protection includes activities or processes that help prevent or detect revenue leakage and ensure all
postage is collected.
2
  Shortpaid and unpaid postage is identified by reconciling the amount of postage paid with the volume of mail
processed.
3
  Universal Postal Union, Postal Revenue Protection Working Group, White Paper on Postal Revenue Protection.
CC 2010.1-Doc 3b. January 2010.
                                                           1
Strategic Approaches to Revenue Protection                                     MS-AR-11-007



increase mail visibility and revenue protection. However, management will still need to
address protection of revenue associated with Basic Service IMb mail volume and
non-automated mail volumes.

Streamlined Business Mail Acceptance Will Mitigate Revenue Leakage

The Postal Service is not collecting all revenue it is due from business mail. Revenue is
lost because rules are complex and mail verification and acceptance involve many
manual processes. Thus, management does not detect all shortpaid and unpaid
postage. The Postal Service has recognized the imminent need for revenue projection
in the business mail acceptance channel and is working to streamline mail acceptance,
verification, and payment.

Current Business Mail Acceptance and Verification Procedures

Acceptance clerks still predominantly perform the business mail acceptance process
manually. While the Mail Evaluation Readability Lookup INstrument (MERLIN) was
designed to help mailers qualify for automation discounts and meet certain mail quality
standards by providing some automated verification, it does not eliminate the manual
process needed for in-depth verification. This leaves revenue at risk of loss for several
reasons:

   The nature of the verification process.

       o Verifications are time-consuming, complicated, and sometimes subjective.

       o Business mail acceptance clerks accept and verify business mailings
         tendered to the Postal Service at BMEUs and DMUs and use manual
         techniques to verify mail review hard copy or electronic postage statements;
         visually verify class of mail, weight, number of mailpieces, and barcode
         quality; and check mailer trust fund accounts.

       o Once verification is complete, the mail is accepted and moved into the
         processing facility.

       o Annual compensation for Postal Service clerks who perform these
         verifications and accept business mail is approximately $367 million.

   The dual nature of business mail acceptance:

       o Clerks are required to verify and accept large mailings in short timeframes
         with conflicting pressures.

       o Mailers are concerned with timeliness of their mailings while BMEU and DMU
         clerks provide the last point of revenue protection before the mail enters the




                                              2
Strategic Approaches to Revenue Protection                                                              MS-AR-11-007



             mail stream, as cited in a previous audit report and by Postal Service
             managers. 4

   Lack of controls over verifications. Although Postal Service guidelines 5 require
    manual verifications and place a significant emphasis on these verifications to
    comply with the Sarbanes-Oxley (SOX) Act of 2002, there are insufficient means to
    ensure the quality of manual verifications in the entry units.

   The decentralized nature of the verification and acceptance process:

         o Any facility can receive business mailings.

         o If mailers choose to submit volumes at small Postal Service facilities,
           inexperienced, multi-tasking clerks who are unaccustomed to receiving large
           business mailings may not verify volumes sufficiently.

         o Postal Service officials interviewed for another U.S. Postal Service Office of
           Inspector General (OIG) audit stated that centralization of smaller business
           mail entry points resulted in revenue protection (Centralizing the Business
           Mail Acceptance Process, FF-AR-11-015, dated September 23, 2011).

Prior audits have shown that personnel at BMEUs and DMUs did not always follow mail
acceptance and verification procedures. In its FY 2010 SOX compliance review, Ernst &
Young identified business mail acceptance as a control deficiency, 6 citing inconsistency
in the performance of procedural activities (such as creating a record in PostalOne! for
each mailing; placarding business mail to show revenue is recorded, and end-of-day
reconciliation of all business activity) as an issue.

In response to these challenges, Postal Service managers:

   Provided additional guidelines to BMEU and DMU employees.
   Trained over 30,000 employees in proper control execution.
   Developed a web-based proficiency test to direct further training.
   Addressed staffing levels at DMUs.
   Conducted site reviews.

Despite these efforts, ongoing audits and SOX work show continued deficiencies
“related to the lack of performance of verification activities to confirm the accuracy of
rates charged and that the discounts claimed were earned for the mailing,” among
others. 7

4
  Mail Verification Procedures at Long Island District Detached Mail Units (Report Number MS-AR-11-003, dated
May 26, 2011).
5
  The Domestic Mail Manual provides mailing requirements for all stakeholders and Handbook DM-109, Business
Mail Acceptance, provides guidelines for employees responsible for verification and acceptance of business mail.
6
  For FY 2010 control compliance deficiency levels were identified by their potential risk and impact as Deficiency
(less than $40 million), Significant ($40 million), and Material Weakness ($200 million).
7
  Business Mail Acceptance Q3, FY 2011,Gap Evaluation, August 5, 2011.


                                                           3
Strategic Approaches to Revenue Protection                                      MS-AR-11-007




Streamlined 8 Acceptance

Management has acknowledged that automating the business mail acceptance and
verification process is the most efficient and effective way to ensure the Postal Service
receives all postage it is due. To this end, Business Mail Acceptance and other Postal
Service groups are working to streamline the business mail verification, acceptance,
and payment processes. Management is already developing, or has developed,
elements of this streamlining effort, including:

      Offering electronic documentation alternatives through PostalOne! (2009).

      Allowing targeted manual verifications based on past mailer performance (2009).

      Enabling digital capture of postage statements and verifying mail volume at both
       originating and destinating plants using IMb and IM container barcodes and
       electronic induction (currently being tested).

According to Postal Service managers, as the next phase of streamlined mail
acceptance progresses, business mail acceptance and verification will be accomplished
by automated mail processing equipment, resulting in verification during “live” mail
processing. Development of this phase will improve revenue protection by, once again,
leveraging technology and reducing the need for manual processes. Officials stated that
automated mail processing equipment, as it exists today, can read IMbs and use the
encoded information for piece visibility and revenue protection once the mail is at the
processing center.

However, developing the interface to ac t between the mail processing plant loading
dock and the processing equipment will require the attention of a variety of managers
and decision makers, including processing officials, since the primary responsibility for
business mail verification will shift to processing plants. This interface will include
considerations for personnel, logistics and reconciliation processes.

Revenue Protection Reliance on Full-Service IMb

Streamlined mail acceptance and verification depends heavily on adoption of
Full-Service IMb by mailing customers. Customers can place IMb on letters, cards, flats,
packages, and labels on mail trays and other containers. Mailers have the option of
adopting IM at the Full- or Basic Service level. Full-Service IMb requires a unique
barcode on each mailpiece and the submittal of electronic mailing documents; Basic
Service allows for unique barcodes but does not require them, limiting the ability to
perform automated mail verification.



8
    Previously this initiative was called “Seamless Acceptance.”




                                                            4
Strategic Approaches to Revenue Protection                                             MS-AR-11-007



Adoption of Full-Service IMb on mailpieces and containers gives the Postal Service and
its customers visibility of mail flow, from mail acceptance to delivery. Management has
stated that, with the adoption of Full-Service IMb on both mailpieces and containers,
shortpaid and unpaid postage “becomes a thing of the past” because verification can be
fully automated and discrepancies can be billed immediately to customer accounts.

Since its initiation in May 2009, Full-Service IMb has not been adopted at the rate
expected. For example, the FY 2011 IMb (Full and Basic Services) compliance goal
was 90 percent of all workshared volumes; this goal is no longer considered valid. 9
Full-Service compliance is quickly increasing; however, and for the first three quarters of
FY 2011 has been 36 percent of total volume (see table below).



                                     Full-Service IMb Compliance
                 Fiscal Year          Total Volume            Full-Service   Full-Service
                                      (mailpieces)              Volume         Volume
                                                              (mailpieces)
                     2010           128,892,451,390         25,359,815,800      20%

               2011 (Q1–Q3)         105,123,874,622         38,174,641,581      36%

The true revenue-protection aspect of IM technologies lies in the nesting of IMb
information – that is, the use of IMb on mailpieces, trays, containers, and even scans
associated with transportation. The nesting information is critical because mailpieces
are moved between mailer, induction points, plants, and delivery units in containers.
End-to-end visibility of mailpieces is achieved when mailpieces are associated with
container barcodes, which are scanned at each transportation or processing event.

As Full-Service IMb volume increases, enabling revenue protection for this segment of
mail, the volumes at risk — Basic-Service IMb and non-automated mail — will decline.
However, for the time being, a significant portion of revenue is protected predominantly
using manual techniques. As of Q3, FY 2011, almost 64 percent (66.9 billion
mailpieces) were not Full-Service IMb compliant, as shown in the table below.




9
    Postal Regulatory Commission, 2010 Annual Compliance Determination.


                                                        5
Strategic Approaches to Revenue Protection                                 MS-AR-11-007




             Source: PostalOne!

To resolve this potential source of revenue leakage, management will need to increase
Full-Service IMb adoption on mailpieces and aggregates (eInduction), address revenue
protection of Basic Service and non-automated volumes and determine whether the
cost of intensive manual verifications is commensurate with the amount of revenue
protected.

Recommendation

We recommend the vice president, Mail Entry and P ayment Technologies:

1. Work with a broadened group of internal and external stakeholders to prepare for
   streamlining the entry of business mail, accelerate the timeline for streamlined
   acceptance and verification, and seek to leverage technology to provide revenue
   protection for Basic Service IMb and non-automated volume.

Management’s Comments

Management stated that it partially agreed with our recommendation and did not agree
with the monetary impact reported. Specifically, management did not agree with the use
of ODIS-RPW as a data source, as this system is used for single-piece mail only.
However, management agreed with our recommendation to work with a broadened
group of stakeholders, noting that they are working in coordination with the mailing
industry to develop a consensus on the future state of automated verifications and an
implementation timeline. Management also agreed to seek to leverage technology to
provide revenue protection, stating that they will map current verification processes,
identify opportunities for automation, and develop a proof of concept by January 31,
2013.

See Appendix B for management’s comments in their entirety.




                                             6
Strategic Approaches to Revenue Protection                                    MS-AR-11-007




Evaluation of Management’s Comments

Although management stated that it partially agreed with our recommendation,
management’s comments indicated agreement with the recommendation and
disagreement with the monetary impact based on methodology. Consequently, the U.S.
Postal Service Office of Inspector General (OIG) considers management’s comments
responsive to the recommendation and corrective actions should resolve the issues
identified in the report.

Regarding management’s disagreement with the methodology used to calculate
monetary impact, the Postal Service depends on the data derived from ODIS-RPW for a
variety of financial and operational reports and decisions, not limited to retail (single-
piece) mail. However, because the data does not segregate the portion of shortpaid
postage which is attributable to business mail, we removed the monetary impact.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                             7
Strategic Approaches to Revenue Protection                                                           MS-AR-11-007




                                Appendix A: Additional Information

Background

The Postal Service obtains revenue from both retail (individual) sales and business
mailings. Each source provides challenges to revenue protection resulting from
shortpaid (insufficient) and unpaid postage. 10 Mail entering the mailstream through retail
channels is generally weighed, measured, and handled manually; in FY 2010, this mail
accounted for 26 percent of total mail volume, or $17.5 billion in revenue. A larger
challenge lies in protecting the revenue of business mail due to its greater volume.
Business mailings 11 accounted for $48.8 billion of revenue (or 74 percent) in FY 2010
and verification of these volumes is predominantly manual at this time

The Postal Service’s total revenue has declined over the last 4 fiscal years and the
postmaster general reports that this trend has continued during FY 2011. These
declines are the result of economic downturns and the accelerating preference for
digital communication alternatives.

                                  Postal Service Total Revenue
                                          FYs 2007–2010
                                        (data in thousands)
                                 Fiscal Year           Total Revenue
                                    2007                $74,972,813
                                    2008                $74,968,220
                                    2009                $68,116,221
                                    2010                $67,076,580
                        Source: Postal Service Quarterly Statistics Reports, published
                        for the public at www.usps.com


Ensuring that the Postal Service receives all revenue from its goods and services is
critical to its survival, especially as revenue declines. 12 Revenue protection includes
activities or processes that help prevent or detect revenue leakage and ensure that all
postage is collected.

Among program officials there is a shared understanding of the need for automated
processes to improve postage verifications. For example:

    Retail, Delivery, and Engineering managers are working to increase revenue
     protection at retail and delivery units through the integration of software across


10
   Shortpaid and unpaid postage are identified by reconciling the amount of postage paid with the volume of mail
processed.
11
   Business mailings typically enter the mailstream through BMEUs at Postal Service facilities or DMUs, which are
housed in the facilities of large business mailers and mail bureaus.
12
   Universal Postal Union, Postal Revenue Protection Working Group, White Paper on Postal Revenue Protection,.
CC 2010.1-Doc 3b., January 2010.


                                                         8
Strategic Approaches to Revenue Protection                                       MS-AR-11-007



    systems, automation of weighing and measuring parcels at the counter, and the
    rollout of passive parcel scanning devices at high-volume parcel delivery units.

   Processing and Distribution Center Operations and Engineering managers are
    currently testing the Advanced Facer Canceller System 200, letter cancelling mail
    processing equipment. This equipment has improved indicia recognition capabilities
    compared to legacy mail processing equipment.

   Postal Inspection Service officials regularly meet with their counterparts in the
    distribution industry and Postal Service program offices — including the SOX
    Management Controls and Integration group — to address systemic revenue
    protection concerns.

Prior OIG audits have identified revenue leakage resulting from shortpaid postage,
predominantly through the acceptance of business mailings. The Postal Service
introduced IM technology in 2009, which provides business mailers a method of
increasing visibility of their mailings, and, with the use of Full-Service IMb, assigning a
unique identifier to each mailpiece. This visibility also protects revenue by providing a
means of reconciling volume and postage.

Streamlined Mail Acceptance and Payment Technology

Current strategies for increasing business mail visibility and revenue protection focus on
a multi-phased effort to automate mail acceptance and the payment process. Planned
benefits to mailers include:

   Online transactions
   Centralized support
   Simplified mail preparation
   Enhanced small business tool
   Automated verification

In addition to creating a more efficient process, benefits to the Postal Service will
include end-to-end visibility of mail volume, reconciliation of postage, and improved
verification of worksharing discounts, resulting in revenue protection.

Objectives, Scope, and Methodology

Our objectives were to assess the Postal Service’s revenue-protection strategies,
identify the causes of revenue leakage, and identify potential solutions to mitigate the
risks. To accomplish our objectives, we reviewed existing policies and procedures
related to revenue protection. We interviewed key Postal Service officials within the
engineering, mail entry, and payment technologies and product visibility groups, as well
as the U.S. Postal Inspection Service. We attended business mail acceptance training
to gain additional insight into the business mail acceptance and verification
environment. We reviewed and analyzed ODIS-RPW shortpaid and unpaid postage



                                              9
Strategic Approaches to Revenue Protection                                    MS-AR-11-007



data and excluded impact claimed in prior audits. See Appendix A for additional
information.

We conducted this performance audit from February through September 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on August 24, 2011, and included their
comments where appropriate.

We assessed the reliability of data through analytical tests and discussions with Postal
Service managers. We determined that the data were sufficiently reliable for the
purposes of this report.




                                             10
     Strategic Approaches to Revenue Protection                                     MS-AR-11-007



     Prior Audit Coverage

                                           Final
                       Report             Report         Monetary
 Report Title         Number               Date           Impact         Report Results
Intelligent Mail:   DA-AR-11-010        8/30/2011          N/A      The Postal Service
Realizing                                                           postponed implementing an
Revenue                                                             original IM program
Assurance                                                           objective — automated
Benefits                                                            revenue assurance — to
                                                                    focus on implementing other
                                                                    aspects of the program. Our
                                                                    analysis also showed that
                                                                    Full-Service IMb scan rates
                                                                    indicate that some mailings
                                                                    exhibited low scan rates
                                                                    when processed on mail
                                                                    processing equipment. We
                                                                    recommended management
                                                                    reestablish the commitment
                                                                    and timeframe for IM
                                                                    automated mail verification,
                                                                    use low scan rates for
                                                                    exception reporting so that
                                                                    Postal Service personnel
                                                                    can perform customer follow
                                                                    up, and seek input from the
                                                                    business mailer community
                                                                    to establish future
                                                                    settlement procedures.
                                                                    Management partially
                                                                    agreed with the
                                                                    recommendations and plans
                                                                    to complete a
                                                                    proof-of-concept by January
                                                                    2013.




                                                    11
     Strategic Approaches to Revenue Protection                                  MS-AR-11-007



Fiscal Year        FF-AR-11-006          1/20/2011        N/A   The Postal Service did not
2010 Financial                                                  comply with key financial
Installation                                                    reporting controls for
Audit —                                                         business mail acceptance
Business Mail                                                   and verification processes
Entry Units                                                     and procedures. W e
                                                                identified a high degree of
                                                                non-compliance and
                                                                increased risk that the
                                                                Postal Service may not
                                                                charge for all business mail
                                                                deliveries and may not
                                                                recognize the associated
                                                                revenue in accounting
                                                                records.
                                                                Non-compliance issues
                                                                related to manual
                                                                processing that we reported
                                                                this year and in the past
                                                                were a root cause for the
                                                                deficiencies in mail
                                                                acceptance and verification
                                                                processes and procedures.
                                                                Management did not
                                                                specifically agree or
                                                                disagree with the
                                                                conclusions in the report.
Full-Service       DA-MA-11-001         11/23/2010        N/A    Given the current financial
Intelligent Mail                                                 condition of the Postal
Program                                                          Service, it is imperative for
Customer                                                         management to maximize
Satisfaction                                                     participation in the
                                                                 Full-Service IM program to
                                                                 enhance customer service
                                                                 and achieve benefits, such
                                                                 as cost control and revenue
                                                                 assurance. Management
                                                                 agreed with our findings
                                                                 and recommendations.




                                                     12
    Strategic Approaches to Revenue Protection                                           MS-AR-11-007



Electronic         CRR-AR-09-006          8/19/2009        $16,265,511   The Postal Service did not
Verification                                                             have sufficient controls to
System                                                                   ensure that it detected,
Rejected                                                                 corrected, and re-processed
Transactions                                                             all rejected Electronic
                                                                         Verification System (eVS)
                                                                         transactions. Transactions
                                                                         associated with uncorrected
                                                                         header records are not
                                                                         included in the postage
                                                                         statements even though the
                                                                         mailpieces have already
                                                                         entered the mailstream. The
                                                                         Postal Service cannot
                                                                         ensure the collection of
                                                                         revenue on all parcels the
                                                                         eVS processes. The latest
                                                                         destination rate validation
                                                                         incorrectly validated the ZIP
                                                                         Codes™ of the destination
                                                                         entry unit facilities and
                                                                         destination delivery unit
                                                                         parcels when applying
                                                                         postage rate discounts. As a
                                                                         result, the Postal Service
                                                                         was unable to ensure
                                                                         discounts claimed by mailers
                                                                         are accurate placing
                                                                         revenue at risk.
                                                                         Management agreed with
                                                                         our findings and
                                                                         recommendations.




                                                      13
    Strategic Approaches to Revenue Protection                                          MS-AR-11-007



Fiscal Year       FF-AR-10-051         12/22/2009           N/A       We identified various
2009 Financial                                                        internal control and
Installation                                                          compliance issues related to
Audit —                                                               managing customer
Business Mail                                                         accounts and eligibility;
Entry Units                                                           accepting, verifying, and
Fiscal Year       FF-AR-09-052         12/22/2008           N/A       clearing the mail; and
2008 Financial                                                        monitoring Special Postage
Installation                                                          Payment Systems. Although
Audit —                                                               internal controls were
Business Mail                                                         generally in place and
Entry Units                                                           effective, a significant
                                                                      deficiency existed related to
                                                                      the acceptance of mail. The
                                                                      OIG did not make a
                                                                      recommendation to unit
                                                                      management and
                                                                      management’s comments
                                                                      were responsive to the
                                                                      conclusions in the report.
Business Mail       MS-AR-08-           7/31/2008        $2,518,008    Although employees at
Entry Unit             005                                             BMEUs and associated
Sampling and                                                           DMUs followed
Verification                                                           mail-sampling procedures,
Procedures                                                             they did not always follow
                                                                       mail verification policies and
                                                                       procedures. Specifically,
                                                                       BMEU personnel did not
                                                                       always perform required
                                                                       verification for large
                                                                       mailings or ensure
                                                                       adequate back-up
                                                                       coverage. As a result, they
                                                                       may not have collected all
                                                                       applicable postage.
                                                                       Management agreed with
                                                                       our findings and
                                                                       recommendations.




                                                    14
Strategic Approaches to Revenue Protection                 MS-AR-11-007



                       Appendix B: Management’s Comments




                                             15
Strategic Approaches to Revenue Protection        MS-AR-11-007




                                             16
Strategic Approaches to Revenue Protection        MS-AR-11-007




                                             17
